<html>
<title> - [H.A.S.C. No. 111-84]SHAPING A WORKFORCE FOR TODAY'S ACQUISITION ENVIRONMENT THAT CAN MEET DOD'S NEEDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-84]

                        SHAPING A WORKFORCE FOR

                    TODAY'S ACQUISITION ENVIRONMENT

                       THAT CAN MEET DOD'S NEEDS

                               __________

                                HEARING

                               BEFORE THE

                  PANEL ON DEFENSE ACQUISITION REFORM

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 21, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                  U.S. GOVERNMENT PRINTING OFFICE
52-272                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                    
  


                  PANEL ON DEFENSE ACQUISITION REFORM

                  ROBERT ANDREWS, New Jersey, Chairman
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
BRAD ELLSWORTH, Indiana              DUNCAN HUNTER, California
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
                Cathy Garman, Professional Staff Member
               Jenness Simler, Professional Staff Member
                     Alicia Haley, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Tuesday, July 21, 2009, Shaping a Workforce for Today's 
  Acquisition Environment That Can Meet DOD's Needs..............     1

Appendix:

Tuesday, July 21, 2009...........................................    27
                              ----------                              

                         TUESDAY, JULY 21, 2009
 SHAPING A WORKFORCE FOR TODAY'S ACQUISITION ENVIRONMENT THAT CAN MEET 
                              DOD'S NEEDS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Andrews, Hon. Robert, a Representative from New Jersey, Chairman, 
  Panel on Defense Acquisition Reform............................     1
Conaway, Hon. K. Michael, a Representative from Texas, Ranking 
  Member, Panel on Defense Acquisition Reform....................     3

                               WITNESSES

Assad, Shay, Director, Defense Procurement Acquisition Policy, 
  Acting Deputy Under Secretary of Defense, Acquisition and 
  Technology, U.S. Department of Defense.........................     5
Farrell, Lt. Gen. Lawrence P., Jr., USAF (Ret.), President, 
  National Defense Industrial Association........................     7
Schooner, Professor Steven L., Co-Director, Government 
  Procurement Law Program, George Washington University Law 
  School.........................................................     8

                                APPENDIX

Prepared Statements:

    Andrews, Hon. Robert.........................................    31
    Assad, Shay..................................................    36
    Conaway, Hon. K. Michael.....................................    33
    Farrell, Lt. Gen. Lawrence P., Jr............................    48
    Schooner, Professor Steven L.................................    62

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Andrews..................................................    77

Questions Submitted by Members Post Hearing:

    Mr. Andrews..................................................    81

 
 SHAPING A WORKFORCE FOR TODAY'S ACQUISITION ENVIRONMENT THAT CAN MEET 
                              DOD'S NEEDS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                       Panel on Defense Acquisition Reform,
                            Washington, DC, Tuesday, July 21, 2009.
    The committee met, pursuant to call, at 8:00 a.m., in room 
2212, Rayburn House Office Building, Hon. Robert Andrews 
(chairman of the panel) presiding.

OPENING STATEMENT OF HON. ROBERT ANDREWS, A REPRESENTATIVE FROM 
   NEW JERSEY, CHAIRMAN, PANEL ON DEFENSE ACQUISITION REFORM

    Mr. Andrews. Good morning, ladies and gentlemen. Welcome to 
the panel. I appreciate the attendance this morning of my 
colleagues on the panel and the witnesses and the ladies and 
gentlemen in the audience.
    The panel is continuing its assessment and evaluation of 
the difference between the cost that American taxpayers pay for 
goods and services and the quality of what we receive. And this 
is the section of our work that is focusing on a series of 
hypotheses as to why that gap exists.
    This morning we examine the hypothesis that the gap between 
what we pay and what we get exists because we have not given 
our individuals in charge of procurement the number of people 
and the skill sets of people they need to get that job done in 
an effective way.
    I want to say from the very outset we are extremely 
appreciative of the men and women who are working for the 
Department of Defense (DOD) in the area of procurement. We 
think that they are dedicated public servants who have been 
given a massive job to do, in many cases overwhelmed by the 
scope of that job, and I just want to make it very clear from 
the outset that I am in no way--I think the panel is in no 
way--critical of the level of preparation, certainly the level 
of commitment and the level of performance, of the men and 
women working in that area. We thank them and commend them for 
their work.
    If anything, our concern is that we have not done a very 
good job on our side of the table in providing the scope of 
personnel and the training and the depth of personnel necessary 
to get this job done right. So I want to say from the very 
outset, make it clear that there is criticism to be had here. I 
think the criticism is more of us in the legislative and 
executive branch in not adequately staffing these areas, not in 
the performance of the men and women who do the work.
    The numbers are compelling. From 2001 to 2008, the 
Department of Defense purchases of goods and services more than 
doubled. It now is about $388 billion a year. The number of 
contract actions has skyrocketed at the same time. In other 
words there is a lot more work to do than there was a decade or 
so ago.
    Basically, there are about the same number of people to do 
that work on the government employ--somewhere between 126,000 
and 129,000 government personnel. There has been a significant 
increase over that period of time in outsourcing some of this 
work in contracting with outside individuals to help the 
Department of Defense manage the procurement process.
    It is interesting that--and I think rather telling--that 
there are no hard and fast accurate data on exactly how many of 
those contractor personnel there are, at least as far as we can 
tell, which I think that alone tells us something about the 
problem.
    But the best estimate is in the range of 52,000 people. The 
Government Accountability Office (GAO) has looked extensively 
at the reasons behind this outsourcing. Typically, the reasons 
given are there is an argument that they can do the job more 
quickly, and there is an argument that the expertise that we 
are bringing on is not expertise that we have in-house.
    This morning's discussion features three very highly 
qualified witnesses, who are going to guide us through a 
discussion of three sub-issues here. The first is a quantity 
issue. How many people are necessary to give the right kind of 
oversight and analysis of this massive amount of procurement 
that we are doing?
    The second, I think, most important is a quality issue. 
What kinds of skills do the people who are doing this work 
need? Are we adequately investing those individuals with those 
skills? How might we increase the availability of skill 
acquisition in this area?
    And then finally, there is a question of balance. To what 
extent should this oversight work be done by people who are 
employees of the federal government? To what extent should this 
work be done by people who are employed by independent 
contractors who are employed by the federal government? By what 
criteria should we make those decisions?
    I think it is self-evident that there are some functions 
that are so highly specialized that they lend themselves to 
contracting out. There are others that are not so highly 
specialized and probably are obvious in that they should be 
performed by federal employees.
    Legislators are line drawers. When we do our job well, we 
draw the line in the right place. When we don't do our job 
well, we draw the line in the wrong place. And I think this is 
an area where a line very much does need to be drawn.
    So this morning we have three very distinguished witnesses, 
and they are going to walk us through their ideas about what 
the right size of the workforce is to do a good job on 
monitoring acquisition, what skill sets are necessary in that 
workforce and how we might step up our efforts to create those 
skill sets among our personnel and our contractors, and then 
finally, what the right balance is between federal employees 
and contractors in achieving the optimal level of contract 
review and procurement review.
    So we appreciate the three witnesses. At this time we are 
going to turn to my friend, the ranking member from Texas, for 
his opening statement.
    [The prepared statement of Mr. Andrews can be found in the 
Appendix on page 31.]

  STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE FROM 
   TEXAS, RANKING MEMBER, PANEL ON DEFENSE ACQUISITION REFORM

    Mr. Conaway. All right. Thank you, Chairman. I appreciate 
that.
    Witnesses, thank you for being here this morning. You 
probably didn't have a choice, but thank you to everyone for 
showing up this morning and visiting with us.
    Our panel is going to talk about a variety of issues within 
the acquisitions arena, the process itself, major weapons 
systems, services contracts, information technology (IT), to 
just name a few. But the one thing that stood out through all 
of these hearings is the role of technologies that the 
personnel of the acquisition team and workforce itself faces.
    It is clear that the panel--to me that if this panel were 
to make only one set of recommendations, that it would be to 
set the conditions within the Department that ensure the 
acquisition workforce is adequately trained and staffed.
    The Congress helped create the current condition of this 
workforce during the 1990s, when it directed its downsizing. 
Now Congress must take the appropriate actions to fix it. And 
while Congress has taken recent actions to help restore the 
acquisition workforce, there is much more to be done. That is 
why we are here today to gain some insights from our panel of 
expert witnesses.
    For example, it is not enough to simply grow the force. 
What specific skills do they need? And do we have the necessary 
institutions to properly train them?
    What is the proper balance between uniform personnel and 
civilians? And as for uniform personnel, some military officers 
begin entering into the acquisition workforce as second 
lieutenants. Others start as captains. Which model has yielded 
better results?
    As well, requirements of budget personnel currently aren't 
part of the acquisition workforce, which was one of the 
findings from the 2006 Defense Acquisition Performance 
Assessment Report. Given the critical role they play, how do 
all of these communities work together and train together?
    What is clear is that we can make some numerous changes to 
the acquisition process itself, but if we don't create the 
conditions for a properly sized, equipped, trained workforce, 
it really won't matter.
    I look forward to hear from our witnesses and gain some 
insight on this critical issue.
    Thank you, Mr. Chairman. Yield back.
    [The prepared statement of Mr. Conaway can be found in the 
Appendix on page 33.]
    Mr. Andrews. Thank you very much.
    Without objection, the opening statement any member of the 
panel wishes will be included in the record.
    I am going to proceed by introducing the three witnesses, 
reading a brief biography. I think you are all veterans of this 
process on the Hill and would remind you the way that we work 
is, without objection, your written statements are a part of 
the record of the hearing. We would ask you to synopsize your 
written statements in about a five-minute oral summary, and 
then we are going to go to questions from the panel so we can 
maximize the time for give-and-take.
    Our first witness this morning will be Mr. Shay Assad.
    Did I pronounce that correctly?
    He is the director of defense procurement. Mr. Assad 
assumed the role of director on April 3rd, 2006. As director, 
he is responsible for all acquisition and procurement policy 
matters in the Department of Defense. He serves as the 
principal advisor to the under secretary of defense for 
acquisition, technology, and logistics and the defense 
acquisition board on acquisition and procurement strategies for 
all major weapons systems programs, major automated information 
systems programs, and services acquisitions.
    Before assuming this position, Mr. Assad was the assistant 
deputy commandant, installations and logistics for contracts at 
headquarters, the Marine Corps, Washington, D.C. He has held 
the position as the Marine Corps' senior civilian contracting 
official since June of 2004.
    He graduated with distinction from the U.S. Naval Academy 
in 1972. He served two tours of duty aboard U.S. Navy 
destroyers and won recognition as the outstanding junior 
officer in the Fifth Naval District. He then served as naval 
procurement officer at the Naval Sea Systems Command.
    He has received numerous federal service awards, including 
the Secretary of Defense Medal for Exceptional Civilian 
Service, Secretary of Defense Medal for Meritorious Service, 
the Department of Defense Inspector General Joseph H. Sherick 
Award, which is the highest honor given to a non-inspector 
general (IG) employee, the 24th Annual Gilbert A. Cuneo 
Lecturer, and the inaugural recipient of the 2008 Osborne A. 
``Oz'' Day Award as the federal executive who has done the most 
to increase the awareness of Ability One employment 
opportunities for those who are blind or severely disabled.
    Mr. Assad, thank you for your service to our country. And 
we are glad you are with us this morning.
    I am going to do the other bios first, and then we will 
have you proceed.
    General Lawrence P. Farrell, Jr. Prior to his retirement 
from the Air Force in 1998, General Farrell served as the 
deputy chief of staff for Plans and Programs Headquarters, U.S. 
Air Force, here in Washington. He was responsible for planning, 
programming and manpower activities within the corporate Air 
Force and for integrating the Air Force's future plans and 
requirements to support national security objectives and 
military strategy.
    Previous positions included vice commander, Air Force 
Materiel Command at the Wright-Patterson Air Force Base in 
Ohio, and deputy director of the Defense Logistics Agency in 
Arlington.
    General Farrell is a graduate of the Air Force Academy, 
with a Bachelor of Science (B.S.) in engineering, a Master of 
Business Administration (M.B.A.) from Auburn University. His 
other education includes the National War College and the 
Harvard program for executives in national security.
    Welcome, General Farrell. We are glad you are here with us 
this morning.
    General Farrell. Honored to be here, sir.
    Mr. Andrews. And finally, we have Professor Steven L. 
Schooner.
    Did I pronounce your name correctly, Professor?
    Professor Schooner. Thank you, sir. Thank you.
    Mr. Andrews. He is associate professor of law and co-
director of the Government Procurement Law Program at the 
George Washington University Law School, where he previously 
served as senior associate dean for academic affairs.
    And my wife being a law school dean, I am well aware of the 
political minefield that that involves, Professor.
    Before joining the faculty, Professor Schooner was the 
associate administrator for procurement law and legislation, 
which is a senior executive position, at the Office of Federal 
Procurement Policy (OFPP) in the Office of Management and 
Budget.
    Professor Schooner received his bachelor's degree from Rice 
University, his juris doctor (J.D.) from the College of William 
and Mary, his master of laws with highest honors from the 
George Washington University, and he is a fellow of the 
National Contract Management Association, a member of the board 
of advisors, a certified professional contracts manager, and 
serves on the board of directors of the procurement roundtable.
    We really appreciate the time of each of the three of you 
this morning. Your statements are excellent. They have been 
entered into the record.
    And we begin, Mr. Assad, with your oral testimony.

    STATEMENT OF SHAY ASSAD, DIRECTOR, DEFENSE PROCUREMENT 
 ACQUISITION POLICY, ACTING DEPUTY UNDER SECRETARY OF DEFENSE, 
     ACQUISITION AND TECHNOLOGY, U.S. DEPARTMENT OF DEFENSE

    Mr. Assad. Thank you, Mr. Chairman.
    Good morning, Chairman Andrews and members of the panel. 
Thank you for the opportunity to participate in today's 
discussion on the acquisition workforce.
    A major element of DOD's acquisition reform efforts is 
revitalizing the defense acquisition workforce. On April 6th 
the secretary of defense announced his intention to 
significantly improve the capability and the capacity of the 
defense acquisition workforce by increasing its size by 
approximately 20,000 employees.
    As part of this initiative, the department plans to 
insource approximately 10,000 contractor support personnel 
positions and ensure that critical and inherently governmental 
functions are performed by government employees.
    I would like to address a few areas of particular interest 
to the committee. The first is the hiring process. The second 
will be planned increases to acquisition functions other than 
contracting, program management tenure and the defense 
contracting and procurement acquisition competency initiative.
    First of all, the hiring process. Hiring authorities and 
resources and processes are improving, but there is a lot of 
work to be done. Hiring is a difficult and oftentimes very slow 
process within the Department of Defense that needs 
improvement.
    Our objective is to hire the best-qualified personnel, 
upholding and supporting the merit principles and meeting 
government-wide statutory and policy objectives. We believe the 
competitive process helps ensure we are considering the best 
qualified to support the acquisition mission.
    The second is increases in acquisition functions other than 
contracting. With regard to the logistics professional 
workforce, we have grown from approximately 11,000 in 2001 to 
around 14,000 today. Some of that growth was simply re-
categorizing the logistics professionals into their proper 
categories of acquisition management. Initial planning 
indicates that we are going to grow that workforce another 
1,700 over the next 5 years.
    And in addition, you expressed a concern regarding the 
logistics management certification. Our data indicates that 70 
percent of the 14,000 acquisition logistics professionals are 
accredited, and 45 percent meet or exceed their position 
certification requirements.
    Recent testimony from each of the senior service 
acquisition leaders cited building a strong engineering 
capability as a high priority. We are forecasting the systems 
engineering career field will grow by about 2,800 employees 
through 2015. This will be no small feat. The requirement for 
systems engineering professionals throughout the country is an 
extremely demanding field, and this will be a challenge for us.
    With regard to program management tenure, the department 
views tenure as a key element of program stability and health. 
Our latest availability survey data indicates the average 
tenure of program managers across the department is about 24 
months, with an expected tenure of 42 months. We are going to 
continue to monitor tenure, as well as take actions to ensure 
that our program managers are in fact in place for the full 42-
month tours.
    With regard to competency, an area that is of particular 
interest to me is our defense acquisition competency 
initiative. By October 2010 the department will have updated 
competency models, concluded all assessments, and taken action 
to assure we are addressing major competency gaps across 
125,000 or so members of the defense acquisition workforce.
    I look forward to working with the panel and keeping you 
apprised of our progress with regard to the secretary's 
acquisition workforce growth initiative, and it is a pleasure 
to be here today to participate in this discussion.
    [The prepared statement of Mr. Assad can be found in the 
Appendix on page 36.]
    Mr. Andrews. Thank you very much, Mr. Assad.
    General Farrell, you are recognized.

 STATEMENT OF LT. GEN. LAWRENCE P. FARRELL, JR., USAF (RET.), 
       PRESIDENT, NATIONAL DEFENSE INDUSTRIAL ASSOCIATION

    General Farrell. Good morning, Mr. Chairman. Thank you very 
much. It is an honor to be here. My statement is submitted. I 
will make a few points and respond to your questions.
    First of all, workforce shaping. We see that in industry as 
a subset of the health of the defense industrial base. There 
are a lot of other elements to that, among them organization, 
manufacturing, capital investment, process and competition. So 
this is one element of a much larger problem.
    We note that DOD is concerned as well, as we have just 
heard, with a program to convert 20,000 positions--10,000 
positions from industry and to hire another 10,000. But to do 
4,100 in 2010, that is going to be a steep hill to climb. It 
will take us back to 1998--147,000. That is probably not a bad 
number.
    But it is a complex task. It is not just insourcing, 
because the real questions are what are the skills you need? 
Where are the holes? Where are the skills? Where do you go to 
get the skills? And what is the priority for getting them?
    And as Mr. Assad has just said, systems engineering is 
probably one of the number one skills we need to bring in--
program management, contracts, cost estimators--with the 
objective of making DOD a good buyer. And right now there is 
some question as to whether or not in all cases DOD is able to 
do that.
    But it is a deliberate process. It is going to take some 
time, and you just have to step back and say, ``Where do you go 
and buy experienced people to bring into this?'' You can't just 
buy experienced people. You have to grow them. So it is going 
to be a deliberate process.
    The current workforce is in some crisis with the overruns 
that you have just talked about--costs and schedule. But the 
biggest problem, we think, is that 50 percent retirement in the 
next 5 years. And with the 50 percent retirement, you put that 
up against the fact that we don't have enough science, 
technology, engineering and math skills in industry today, and 
our schools aren't producing enough. We think the future 
doesn't look good because of those two things.
    But we think you need to carefully consider the criteria of 
goodness. That is, how do you recruit, train and retain these 
people? And we think you could do a little bit better in hiring 
people, maybe, if you do some direct hiring, you get some 
authority for direct hiring, and revisit veteran preferences, 
especially those veterans with engineering skills.
    You need to take a look at pay, performance, career 
progression and promotion and make sure that you pay and 
promote people based upon their contribution to the outcome, 
not time in service.
    And then there is the issue of tooth to tail. On the 
battlefield, tooth to tail is a good measure of efficiency, but 
it is not a good measure of efficiency when you are hiring a 
professional. So if we can have a million people back here in 
D.C. and we can send one soldier or one airman to the 
battlefield to do the job, that is good. So we shouldn't be 
concerned about the number of people we are bringing in. We 
need to bring in enough people to do the job.
    Right now, Mr. Assad has got an inventory ongoing. We 
haven't seen those numbers yet in the industry. We are very 
interested to see them, but we think we ought to insist on a 
quality product as an outcome of that.
    There is one other thing we need to do, and that is to look 
at the ``inherently governmental'' definition. The Office of 
Management and Budget (OMB) has been mandated by the President 
to come out by 30 September. Right now we think the way 
``inherently governmental'' definition is applied is 
dysfunctional. We need to tighten that up.
    So what do we need to do? Government and industry need to 
pursue this as a partnership and work together, because it is 
not just a government problem. It is also a problem in 
industry, because if the government in solving its problem 
creates a problem in industry, then we don't move forward. So 
we need a balanced solution, a collaborative solution, 
recognizing that both sides have needs.
    Thank you, sir.
    [The prepared statement of General Farrell can be found in 
the Appendix on page 48.]
    Mr. Andrews. General, thank you for your testimony.
    Professor. Welcome.

    STATEMENT OF PROFESSOR STEVEN L. SCHOONER, CO-DIRECTOR, 
     GOVERNMENT PROCUREMENT LAW PROGRAM, GEORGE WASHINGTON 
                     UNIVERSITY LAW SCHOOL

    Professor Schooner. Chairman Andrews, Ranking Member 
Conaway and members of the panel, I really appreciate the 
opportunity to discuss the DOD acquisition workforce issue.
    It seems to me that the empirical case demonstrating that 
DOD with significant congressional assistance, as 
Representative Conaway pointed out, has starved the acquisition 
workforce now for two decades--that case seems to be 
compelling.
    At the micro level, what is much more difficult is figuring 
out how many people and which specific skill sets must be 
hired. And I think DOD can continue to study those things over 
time, and those needs will continue to change.
    But for now, I have a rather simple conclusion. And that is 
DOD should endeavor to go out and attempt to hire, train and 
deploy every qualified procurement professional available in 
the marketplace. And simultaneously, they should engage in an 
aggressive, large-scale, professional development program to 
prepare talented young people to become the government's future 
business managers.
    Now more specifically, with all due respect to Mr. Assad, 
who I think is doing as good a job as he can in this situation, 
DOD's articulated plan, which will restore the acquisition 
workforce to 1990 levels by 2015, is not only too slow, but it 
aspires too far too little. Among other things the 1998 
benchmark ignores that the lion's share of the 1990s 
congressionally mandated reductions in the acquisition 
workforce were before 1998.
    Second, as you pointed out, Chairman Andrews, we have seen 
explosive growth in procurement spending in this decade. You 
pointed out the dollars had increased by 100 percent, but we 
are talking about growth at five times the rate of inflation, 
with an already diminished workforce.
    Now, we have seen dramatic changes in how and what the 
government buys. The older members of the workforce were 
brought in to hire goods with fixed-price contracts. Today we 
are buying services with flexible vehicles, and services 
require completely different modes of oversight.
    We have talked about the looming retirement crisis, and no 
matter how much hiring we do in the next few years, it won't be 
enough to keep up with that. Moreover, this isn't just a DOD 
problem. It is a government-wide problem, and DOD's efforts 
will be hampered, because the civilian agencies will continue 
to covet and hire away many talented people from DOD, just as 
the private sector does. So lots and lots of hiring needs to be 
done.
    At a more macro level, what is frustrating is that DOD, and 
to some extent the government as a whole, has steadfastly 
rejected the fundamental refrain that an ounce of prevention is 
worth a pound of cure. There always seems to be money and 
resources available for oversight and punishing bad actors. 
There never seems to be enough money available to get the 
people who will do the planning and get us good contract in 
advance, so we can avoid some of these problems.
    I think from a leadership standpoint--I think that for too 
long DOD has delegated these acquisition workforce issues to 
the Defense Acquisition University (DAU), which has proven 
slow, risk averse and insufficiently potent to alter the 
behavior.
    We have also far too often seen negative signals from the 
White House. Rather than supporting the acquisition workforce 
with mere rhetoric, they continue to distract them with, for 
example, new social policies in procurement and a not very good 
focus on receiving value for money.
    The other thing is I think we simply have to make the 
profession more attractive. We have to tone down the anti-
contractor rhetoric, and we also need to make clear to the 
public how important these contractors are for literally 
everything the Defense Department does, both in terms of goods 
and services.
    I think that the civil service and the Office of Personnel 
Management (OPM)-based recruitment process remains too 
cumbersome, and it is impenetrable in the private sector. At 
the entry level on the college campuses and in the business 
schools, students have no idea what excellent opportunities 
there are to serve as the government's business managers, and 
we need change.
    I agree with General Farrell that what we really need to do 
is aggressively start growing talent for the long term. I think 
that DOD needs to be more aggressive. Despite its limited size, 
the Veterans Administration Acquisition Academy is a wonderful 
model for a hands-on, holistic, results-oriented program.
    But I think what we need to be thinking about is something 
maybe bringing together some aspect of co-op programs, Reserve 
Officer Training Corps (ROTC) scholarships, the military's 
funded legal and medical trainings. But see if we can go out 
and get young people. Give them tuition benefits, rotational 
assignments, and promotion opportunities like those of the 
Presidential Management Fellows Program.
    Now finally, you asked me to comment on the proliferation 
of private sector support in the performance of acquisition 
functions. For the short term, particularly given the five-year 
horizon that we have talked about for rebuilding the 
acquisition workforce, the government has no choice but to 
continue to rely heavily on the private sector for the 
acquisition function.
    On this note I find DOD's insourcing plan ill-conceived, 
overly optimistic, and not calculated to address the ultimate 
needs. But the government faces a choice. They can either rely 
on the private sector for acquisition support, or the bottom 
line is they can try to squeeze blood from a stone and suffer 
the consequences, and that seems totally irresponsible.
    It took us 20 years to get where we are today. It will take 
far more than five years of timid efforts to restore and 
reinvigorate the acquisition workforce. I understand that many 
people in DOD are doing the best they can, but any prospective 
investment we make in upgrading the numbers, skills and morale 
of our purchasing officials and the people that support them 
will reap huge dividends for the taxpayers and the warfighters.
    Thanks so much for the opportunity to share these thoughts.
    [The prepared statement of Mr. Schooner can be found in the 
Appendix on page 62.]
    Mr. Andrews. Thank you, Professor.
    We thank all three witnesses, and we are going to proceed 
with the questions. I did want to mention, before we did that, 
that this panel owes a debt of gratitude to Chairman Snyder and 
Ranking Member Wittman for the very good work that the 
oversight committee did on this issue in a hearing in April, 
which kind of paved the way for us. I want to let the record 
reflect we appreciate their efforts.
    Mr. Assad, how many contracted private sector acquisition 
overseers do we have working for us today?
    Mr. Assad. We have at least 52,000, but----
    Mr. Andrews. Do we know the precise number?
    Mr. Assad. No, we don't. And we are continuing to refine 
that. It is probably higher. But it gave us--what we did know 
was we--contrary to what may have been said, we have a well 
thought out plan as to what we are doing, and we know very well 
what we are doing.
    Mr. Andrews. If I may, because the time is a bit short and 
I don't mean to be argumentative, why don't we know the precise 
number?
    Mr. Assad. It is very difficult to assess. There are some 
performance-based concepts that we utilize to do this work on a 
fixed-price basis, and as a result we are buying an outcome and 
not necessarily buying a number of people, so it is hard to 
assess that.
    Mr. Andrews. I understand that. I understand it.
    Now, describe for us the process that you use to determine 
which oversight functions to outsource and which to insource. 
Let us say that the Marine Corps today wanted to buy a very 
elaborate piece of software that would integrate its 
communications around the world, and you had to determine 
whether to insource or outsource the contract oversight. How 
would you derive that decision?
    Mr. Assad. Well, contracting oversight fundamentally is 
done by government employees, and so the Marine Corps Systems 
Command would be responsible for buying that particular piece 
of equipment. The issue that we have is that we don't think we 
have enough federal employees doing contract oversight. And so 
that is why we are about--it is actually around 9,900 folks out 
of the 20,000 will be directly associated with contract 
oversight.
    Mr. Andrews. But that sort of presumes that the people you 
have would have the skill set to oversee such a contract.
    Mr. Assad. Yes.
    Mr. Andrews. If you have enough of them, you just keep it 
inhouse. Isn't there also a qualitative assessment as to 
whether the employees have the skill sets to do the oversight?
    Mr. Assad. Absolutely. And I think that we have done within 
the department, frankly, some of the most sophisticated and in-
depth competency modeling that has been done in this industry 
with regard to acquisition and contracting professionals. We 
will have all of our acquisition professionals through their 
competency modeling by the end of 2010.
    Mr. Andrews. Who is determining the standards on the 
competency modeling?
    Mr. Assad. Well, let me give you an example of the 
contracting professionals. What we did was we took the top 100 
Senior Executive Service (SES), general officers and O-6s who 
are actually running the contracting shops throughout the 
country. They went through the competency modeling themselves, 
and then we sat for three days and determined the standards--
myself included--as to what the expectations would be for a 
junior person, an intermediate person and a senior-level 
professional and in a contracting environment, so the way it 
will be done.
    Mr. Andrews. In deriving those standards, did you seek 
input from people outside the Defense Department?
    Mr. Assad. Well, you know, frankly, there isn't. There is a 
lot of talk about competency modeling in industry, but when you 
get down to it, there is not a lot of data out there in terms 
of that assessment.
    Mr. Andrews. That would be the question I think I would ask 
for Professor Schooner, because that sort of leads to it.
    You mentioned the Veterans Administration (VA) academy as 
an example of excellence. How about in the private sector 
that--are there any, in your view, outstanding private sector 
examples of training and educating people who do procurement?
    Professor Schooner. Well, I think there is a number of 
different models, but I think that the main thing that we see 
differently is the basic what I would call cradle to grave 
professional development approach.
    So, for example, if we were to merely distinguish between 
the way that the Defense Department retains and grows an 
officer from the way that they deal with procurement 
professionals on the civilian side, I think we see a rather 
dramatic difference.
    We look for high standards at the recruiting stage. We 
control the undergraduate education. They are sent through an 
officer basic course very early on in their career. They are 
sent to an advanced course. There are consistent upgrades in 
course along the way.
    The civilian acquisition workforce simply is not given that 
level of attention, development, professional growth and the 
like.
    Mr. Andrews. Let me ask a layperson's question of any of 
the three of you. Do we pay them enough? If a young man or 
woman is coming out of engineering school or a business 
program, do we pay them enough to have them make a lifetime 
commitment to this kind of career?
    Mr. Assad. Well, having been on both sides of the table and 
paid people in this profession from both an executive 
perspective and as well as contracts manager, our people are 
well paid. They don't make necessarily what their peers make on 
the outside as they get to more senior positions, but I think 
in the intermediate ranks in the junior ranks, we are very 
competitive. And frankly, we have an ace card, and our ace card 
is that we serve the warfighter. And so it is that sense of 
service that makes the difference.
    Mr. Andrews. Qualitative. That is good.
    Mr. Assad. Yes, sir.
    Mr. Andrews. General Farrell, did you want to comment?
    General Farrell. Yes, I mean you talked about software. 
But, look, if I am a software engineer graduating from Georgia 
Tech or Michigan or Cal Tech or Stanford and I get an offer 
from Microsoft, Google or Yahoo or get an offer from the 
government, where do you think I am going?
    Mr. Andrews. You think that----
    General Farrell. I don't think we pay--the kinds of skills 
we are looking for----
    Mr. Andrews. Right.
    General Farrell [continuing]. Especially engineering and 
software, I don't think we pay them enough. Sorry, I 
respectfully disagree with my friend.
    Mr. Andrews. I would just ask Professor Schooner, and then 
I am going to go to Mr. Conaway.
    Professor Schooner. I think to an extent in the short term 
in the economy, I am not as convinced that the compensation is 
a major issue, but if the economy improves, it is a significant 
issue.
    And I do want to echo one of the points that General 
Farrell made. Systems engineering, which is a huge hole, and as 
Mr. Assad said, you know, with the more senior ranks program 
managers, these are the places where not just good 
compensation, but incentives make the private sector 
dramatically more attractive.
    Mr. Andrews. And this is becoming a more and more critical 
area of our oversight, isn't it? I mean, systems engineering 
was probably a fairly exotic field 20 years ago. It is 
absolutely essential today, if I am reading this correctly.
    Professor Schooner. Major acquisitions are all systems 
engineering.
    Mr. Andrews. Yes. So thank you very much. Well, I think we 
will have a second round. I want to go to Mr. Conaway now.
    Mr. Conaway. Right. Thank you, Mr. Chairman.
    Gentleman, thank you for being here. My frustration is 
that, you know, we are whacking on this thing at 50,000 feet, 
one-size-fits-all kind of solutions and, you know, anecdotes.
    And I am troubled that with all of our work that we don't 
get far enough down into the details that--you know, an 
acquisition professional for a sophisticated computer program 
or system that is going to go worldwide, you made need somebody 
that is a little better there than, say, somebody who is making 
sure that the canned peaches are showing up on time and that we 
are getting the right price for that. So pardon my frustration 
with some of this one-size-fits-all thing.
    Now, just as a mechanical issue, 50 percent retirement in 
the workforce in the next 5 years, Mr. Assad? Is that what you 
said?
    Mr. Assad. I didn't----
    Mr. Conaway. That is 55,000 people that are going to 
retire?
    General Farrell. I said that.
    Mr. Conaway. I am sorry. Mr. Farrell.
    General Farrell. Fifty percent are eligible to retire in 
the next five years.
    Mr. Conaway. Oh, eligible, okay. How many of those 
eligibles do you think will actually retire?
    Mr. Assad. Well, that is a good question, Mr. Congressman, 
because we are actually seeing a slowdown of--you know, we 
anticipated, frankly, even three years ago those numbers were 
about the same. And, you know, we have an aging workforce. 
There is no doubt about it.
    Mr. Conaway. So we have just got the threat out there. We 
don't know with the economy----
    Mr. Assad. But I think, frankly, what has happened in the 
economy has made a lot of people change their mind with regard 
to their retirement plans.
    Mr. Conaway. Is that 65,000 people, 75,000 people?
    Mr. Assad. It is about that, yes.
    Mr. Conaway. Okay.
    I come from a profession where periodically we have to 
decide or determine what an entry level Certified Public 
Accountant (CPA) ought to be able to do and to set the standard 
for the exam. The exam is just a minimum level of qualification 
that you need to get into, and every 10 or 15 years they go 
through an assessment of what should that group know in order 
to get over that bar. Is that similar to what you are doing 
with your----
    Mr. Assad. Yes.
    Mr. Conaway. Okay.
    Mr. Assad. Yes, sir. We will revisit those competency 
standards every couple of years.
    Mr. Conaway. So my understanding that you have got an 
inventory of the current team will be done by the end of 2010. 
Do you have an inventory of what you ought to have versus what 
that team is? Is that what----
    Mr. Assad. Yes, well, right now we are pretty much through 
the contracting group, which is one of the largest. Systems 
engineering is the other. They will be the next done. And that 
enables us to understand what are the gaps. And we understand 
that very well.
    We know exactly what kind of skill sets that we are very 
much in short supply of--for example, pricing. We know that 
that is an issue within the department.
    Mr. Conaway. There is pricing. Are there college graduates 
coming out with degrees in pricing?
    Mr. Assad. Well, let me give you an example.
    Mr. Conaway [continuing]. A team or a plan to go get that 
pricing competency that you need?
    Mr. Assad. Let me give an example of that. We just put out 
a call for 300 positions that we are going to hire at Defense 
Contract Management Agency (DCMA) in pricing. And we just 
closed that request for hiring. We have 5,000 applications for 
those 300 jobs.
    Mr. Conaway. Well, that is pretty--Mr. Assad, given the--
unemployment rate.
    Mr. Assad. Most of them are financial management. Yes, 
financial management folks make outstanding pricers, and there 
are a lot of financial management folks who are looking for 
employment.
    Mr. Conaway. All right. How long will it take to get to get 
those 300 hired?
    Mr. Assad. Well, I think we will probably get them hired 
within the next year. We just started the hiring process at 
DCAA. We opened up the DCAA hiring about two-and-a-half months 
ago. We have hired 175 folks already at DCAA.
    Mr. Conaway. Is that process nimble enough? Are there 
barriers to doing that well and quickly that we need to 
address?
    Mr. Assad. Well, we think that the expedited hiring 
authority that Congress has given us has been very helpful. The 
Navy in particular is really at the forefront in terms of 
utilizing that particular process, and I think we have brought 
about 400 or 500 people on board this year, using expedited 
hiring authorities, and we have only had 13 people who have 
actually refused employment as a result of utilizing that 
process. We have made some----
    Mr. Conaway. What does that mean to me?
    Mr. Assad. What that enables us to do is----
    Mr. Conaway. Why did that 13--your standards are so low you 
only called 13----
    Mr. Assad. No, no, no, no, no, no. What I am suggesting is 
that we were able to respond to people who are looking for jobs 
and in sufficient enough time that they accepted the positions 
and said, ``Yes, we want to come to work for the government.'' 
We only had 13 folks who found other jobs.
    Mr. Conaway. Found other jobs in the interim.
    Mr. Assad. That is correct.
    Mr. Conaway. I am with you. Okay. Thank you.
    Yield back.
    Mr. Andrews. Thank you.
    The chair recognizes Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Schooner, could you describe to us in more detail some 
of the inadequacies of the Defense Acquisition University and 
why they don't measure up to the VA Acquisition University 
system?
    Professor Schooner. I think there are two separate issues. 
I think my most specific criticism of DAU is that when 
confronted with this issue, to some extent they have taken the 
approach, and I think it is perfectly rational from one 
standpoint, that study, study, study, figure out all the 
answers, and then go about solving it.
    But we have known about this issue for more than a decade. 
And it seems to me that DAU had more than enough information 
years ago to start saying, ``We will continue to study, but we 
have critical needs.''
    It did not take sophisticated research to understand that 
we didn't have enough contracting officer representatives 
managing service contracts on the ground in Iraq and 
Afghanistan. I didn't have to do research to tell you that.
    But we now have empirical evidence demonstrating that the 
shortfall was staggering. And this is similar. And we can go 
through the list of the things we have talked about. Program 
managers, systems engineers, pricing experts--we can take any 
individual category.
    I agree with DAU we do not know yet the exact number, but I 
know that at the current rate we are not going to have enough 
by 2015. I know we don't have them today, and I know we didn't 
have them three years ago either.
    The VA thing--I mentioned it simply because it is a 
holistic approach, which is focused far more on growing the 
next generation rather than going out into the marketplace and 
trying to find the solution. I think we need to do that, but I 
am not convinced the marketplace can meet all of our needs, nor 
do I believe it will fill the gap or deal with the pending 
retirements, once the economy recovers.
    So I think we need to be doing simultaneously both. I agree 
with all of those people that say we should be chasing the cow 
in the marketplace, but we need to grow the next generation, 
because we haven't done it for a generation.
    Mr. Assad. Congressman, if I could make a comment, sir, 
about DAU. It was not DAU's responsibility to assess the size 
of the workforce. That responsibility rests at the under 
secretary of defense for acquisition, technology, and 
logistics. It rests at our office and the service acquisition 
executives.
    With regard to the capability of DAU, there is no corporate 
university in this country that can equal the capability of the 
training that they bring to the employees of the Department of 
Defense. It is not even close. I mean, there is no defense 
contractor who has any training program that is even remotely 
close to the service that DAU provides to its federal 
employees. So I just want to clear that up.
    Mr. Cooper. I am struck by the disconnect between Mr. Assad 
and Mr. Schooner, because on the one hand Mr. Assad said that 
the ace in the hole in hiring is the fact that they would be 
serving the warfighter, and Professor Schooner is saying, well, 
the Defense Acquisition University tends to study things to 
death and not get the action and results that the warfighter 
needs.
    You say that, Mr. Assad, that the Defense Acquisition 
University is incomparable and better than anything in the 
corporate world and it sounds like state-of-the-art. And then 
Professor Schooner is saying that basically they are not even 
as good as the VA acquisition system, and they are buying 
hospital supplies.
    Professor Schooner. No----
    Mr. Assad. Well, the DAU is probably the most decorated or 
most recognized corporate acquisition university in the country 
over the last five to seven years. What I am saying is DAU is 
not responsible for making a determination as to what the size 
of the workforce is. It happens to be that the president of DAU 
is our human capital officer and works for Acquisition, 
Technology, and Logistics (AT&L), but they are not responsible 
for that.
    That was the service acquisition executives, as well as the 
office of the under secretary, including myself and my 
predecessors.
    Mr. Cooper. Professor Schooner, you wanted to comment?
    Professor Schooner. Sir, two things. First, I think it is 
apples and oranges to some extent. What VA is doing is a small, 
nascent effort, and it will grow a future workforce. They are 
bringing in literally tens of people a year, so it is very 
difficult to compare their scope with DAU.
    And I fully appreciate what Mr. Assad is saying that the 
head of DAU is possibly two-hatted. But at the end of the day, 
he has been the point person for this rightsizing of the 
acquisition workforce.
    And whether we want to point the finger at AT&L or whether 
we want to point it at DAU, I want to just make the simple 
point that we did not need to wait until Congress lost patience 
to begin rebuilding the acquisition workforce. The trend lines 
are unmistakable. We have seen it coming. There are no 
surprises here. We have been too slow.
    Mr. Cooper. General, did you want to get a word in? I see 
my time has expired.
    General Farrell. Yes, sir. Well, I just wanted to say I 
have been in acquisition logistics for a long time in the Air 
Force, so I have kind of seen this thing go. I think DAU--their 
primary responsibility is education, and they do a great job of 
it. I have been to their school. I know General Anderson well. 
I know some of the professors. They do a good job of educating.
    I think one of the issues you haven't touched on yet is 
when we used to do acquisition really well, and this was about 
20 to 25 years ago, we didn't have all this education. The 
emphasis was on training, and Chairman Andrews has talked about 
this. We put more emphasis on training and professional 
development than we did on education. Now it seems to me we 
have got a lot of emphasis on education and not as much 
emphasis on training and professional development.
    Mr. Cooper. Thank you. My time has expired.
    Mr. Andrews. Mr. Coffman is recognized.
    Mr. Coffman. Thank you, Mr. Chairman.
    So it is my understanding--is the number about 65,000 to 
75,000 in defense acquisition right now?
    Mr. Assad. I think--in terms of folks that may be within 
retirement age in five years?
    Mr. Coffman. Well, what is the total number right now?
    Mr. Assad. One hundred twenty-seven thousand--actually, it 
is 179,000 to 185,000 when you talk about the integrated 
acquisition workforce with contractors.
    Mr. Coffman. Okay. So why--that is a fairly significant 
number, and I think we are saying now that that number may not 
be large enough. Is that what we are saying, because that is 
more folks than we have on the ground in Iraq? I mean, having 
served there with the United States Marine Corps, I am stunned 
at this number.
    And having been in government, I have seen where sometimes 
we bring people in and we never push people out that might not 
fit. And we always make room for everybody. And so I have to 
ask the question: Do we have people that are the right people 
that are doing this? I mean, and do we have to make some hard 
decisions here?
    Mr. Assad. I think, Mr. Congressman, first of all with 
regard to the size, I think we have got a pretty good idea of 
the size, and we are satisfied that we are about--where we want 
to go is going to address a lot of the issues that we have 
within the department.
    You make a very good point, and that is to assess--properly 
assess--the mix of talent that we have. We know that there are 
some specific areas where we have to grow our mix from going 
from a contractor-supported capability into more of an inherent 
capability.
    I will take the example of marine engineering. We know, for 
example, within the Navy, the Navy specifically is targeting in 
its growth strategy the growth of marine engineers, that we 
need to regain our shipbuilding marine capability in terms of 
being able to conduct proper oversight and understanding what 
is going on with our marine industry.
    We know that in the Army, for example, they want to make 
some very specific growth in terms of program managers. And so 
there are areas that we can go through pretty good detail and 
say these are specifically by service where we are going to go 
the people that we are going to grow.
    We know exactly what we are doing in terms of the number of 
contracting officers that we want to increase, where we want to 
increase, the talent level that we want to have. So I am not at 
all here saying that the 20,000 folks that we think we need to 
grow over the next 5 years is insufficient. I believe it should 
be sufficient, based on what we know today.
    I can tell you that this is no small task, trying to hire 
20,000 people over 5 years, and this is going to be--you know, 
it is a--we will do it. And I am very confident we can do it, 
but it is going to take us some time.
    And, you know, you need to be able to look at this in our 
call over a five-year horizon. When we get to about year two or 
three, if we need to adjust this one way or other, up or down, 
we will be prepared to do it.
    But I think we have got a very good plan that is 
executable. The services understand what they want to do and 
how they want to do it and that we can move forward. And I am 
satisfied that the size of the workforce in terms of the 
government employees, with the additions we are making, will be 
an ample and capable workforce.
    Mr. Coffman. On the bringing in some of the technical 
expertise that is currently done by contract, I think that is 
just a very--I am having a lot of difficulty where to draw that 
line, because when you bring somebody in, say, that has a great 
deal of technical expertise in a kind of a finite area, and 
maybe you would contract--maybe they got really six months of 
work on a project, so where do you draw the line in terms of 
what is routine and what is not?
    Mr. Assad. I think that historically, as we are examining 
our contractor workforce, we are doing that. We are actually 
looking at, well, how long have we actually had these 
contractor employees working in this organization? I mean, is 
this truly a surge capability? And if it is, that absolutely 
should be contracted out. But if it is a long-term requirement 
and need, and it is an inherent capability that we want to 
have, those are the kinds of decisions that we are making to 
say we need those to be government employees.
    Mr. Coffman. Very good.
    Professor Schooner. That is one interesting, and I 
mentioned in my statement--I threw it in a footnote in there--
that a fun barometer to use for the outsourcing of the 
acquisition function is just look at a single firm, Acquisition 
Solutions, and I like to use Acquisition Solutions as an 
example, because as a general rule they are experienced, and 
the government likes them. They feel like they get good service 
from them, and they have got a pretty good policy so that there 
is no conflict of interest, because they only work for the 
government.
    But we are talking about a firm that over the last 3 fiscal 
years is taking in about $35 million a year performing 
fundamental acquisition work for the government. So it is just 
one barometer. There are other firms out there, and there are a 
fair number of them, but it is some example of the fact that we 
have got a pretty significant need.
    One of the other things that I think, frankly, scares me a 
little bit about the reach and depth of Acquisition Solutions 
is how they not only provide so many valuable services to our 
acquisition community, but they are establishing themselves as 
the fundamental source of knowledge management in acquisition 
as well.
    And I think this is less true for the Defense Department 
and many of the other government agencies, but for many 
procurement professionals today, the place I go for answers 
first is their contractor, rather than a government source.
    Mr. Coffman. Thank you, Mr. Chairman. I believe my time has 
expired.
    Mr. Andrews. Thank you, Mr. Coffman.
    With the consent of my colleagues, we will do a second 
round for those who would like.
    I am going to come back to the systems engineering 
question. Any of you, how would you define in quantitative 
terms the number of systems engineers that we need today to 
properly manage the procurement that we are doing, part A? And 
then part B, how far short of that do we fall right now? How 
many systems engineers do we need and how many do we have?
    Mr. Assad. We have approximately--and I will get you the 
precise number, but my recollection is 37,000 or so engineers, 
including our systems engineers. We want to hire 2,800 over the 
next 5 years.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Assad. Our services believe that that is sufficient, 
because we do rely on and do utilize systems engineering 
capability from the industrial workforce, and we don't want to 
stop that, because for the very reason that the congressman 
mentioned. We may have a one-year task that needs to be done or 
a very specific task that needs specific types of skills. We 
can contract that out, and we will.
    What we are looking for precisely right now is we have a 
loss of some very specific skills that we want to have inherent 
within government, like marine engineering.
    Mr. Andrews. Well, does that 2,800 in your opinion also 
absorb the retirement loss that we are going to suffer?
    Mr. Assad. Yes, when I am talking about 2,800, that is 
growth. That is growth on top of the present number.
    Mr. Andrews. So that would assume that we fill the 
vacancies of people who retire and add 2,800 slots on top of 
that?
    Mr. Assad. Yes, sir. I think the number is about 6,000 
folks a year we are hiring within the acquisition--that is on 
systems level.
    Mr. Andrews. Just in systems engineering, I am talking 
about.
    Mr. Assad. I will have to get for the record the exact 
number on an annual basis, but it is about 6,000 overall.
    Mr. Andrews. Does anyone on the panel disagree with that 
assertion as to that number is the goal?
    General Farrell. I don't know what the number is, but we 
ought to focus on the criteria, and the criteria is what does 
it take for government to be a good buyer? And all the major 
defense acquisition programs need systems engineering 
expertise.
    Mr. Andrews. Yes.
    General Farrell. If you see a program that is contracted 
out with something like a total system performance 
responsibility, a TSPR, or a lead systems integrator, you might 
assume that the government doesn't have enough systems 
engineers or expert pricing people to do that job.
    Mr. Andrews. General, I think you are touching on a 
question Mr. Conaway and I want to know the answer to. Are all 
these people being added all entry level? Or are there going to 
be some laterals added as well?
    Mr. Assad. Well, let me tell you that the targeted level 
that we are using for our systems is GS-14 and 15. So we 
understand that we are going to have to be very competitive to 
get systems engineers. Now, we have a systems engineering 
intern program and a management development program that we are 
looking at.
    Mr. Andrews. But the short answer is it is a mix of lateral 
and entry level.
    Mr. Assad. That is correct.
    Mr. Andrews. What is the blend? Is it 70 entry, 30 lateral, 
or----
    Mr. Assad. I don't have that number for you, but I will get 
it back for the record and give it to you.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Andrews. Professor, did you want to comment on this 
question?
    Professor Schooner. I am not in a position to quantify on 
the number, but it is quite clear, based on what the general 
research shows and what we are hearing both from the program 
officers, but also specifically from the private sector, that 
this is a huge hole.
    I think it is great that they are taking an aggressive 
approach, but I again think they need to do both. I think they 
need to bring in the senior people, but they need to grow them, 
too.
    Mr. Andrews. Yes, I think this is an encouraging answer, 
but one obvious finding is that there is this huge hole.
    Let me shift ground for my final question. The committee is 
very interested in much more emphasis on the requirement 
process in procurement. We have learned in our work thus far 
that a lot of the problems that metastasize later in the 
process grow from an inadequate requirements process. We don't 
think things through well enough. We don't have the right kind 
of requirement design.
    To what extent do you think that procurement professionals 
should be involved in the requirements process, and not simply 
jump in later on? What do you think about that--any of you?
    Mr. Assad. Well, I think that there has to be a handoff, a 
well understood and an integrated handoff between the 
requirements generators and the acquisition professionals. And 
the earlier we can get into that process in terms of 
understanding what the warfighter really needs--and frankly, 
that is where systems engineers come into play is understanding 
what is the right solution to address the warfighter's need--is 
helpful.
    Mr. Andrews. Is there any reason that you shouldn't be in 
on day one?
    General Farrell. It is a given. Well, the operators are the 
guys at stake in the corners--the warfighters.
    Mr. Andrews. Right.
    General Farrell. And it should be their requirement. But 
there should be some discipline in the process, so therefore 
there has to be a healthy tension between the acquisition 
professionals on the one hand and the operators, who are 
stating the requirement, on the other. And there needs to be 
somebody at the time refereeing that process.
    And the way we have seen it work the best is when the Air 
Force used to have the chief referee between the head 
acquisition guy and the head operator, who is demanding the 
requirement.
    Mr. Andrews. That would be a fun job.
    General Farrell. It works. But somebody has to say--the 
acquisition guy has to say, ``What you are asking is going to 
take a total redesign. It is going to add this many years. It 
is going to add this many dollars. Is that what the Air Force 
or the Navy or the Army wants?'' And the chief has to say, 
``No, we are going to take a more measured approach.''
    And one of the things that we need to reinstitute that we 
kind of walked away from is block development, which says that 
the first thing coming off the line doesn't have all of the 
unobtainium in it. It is kind of a basic----
    Mr. Andrews. Is that on the chart of periodic elements?
    General Farrell. Yes. It is a basic article. It has got a 
measurable increase over the thing that it is replacing, but it 
is going to grow over time with the block two, the block three 
and the block four. If you put block development in every 
program, you would see a measurable improvement in its cost and 
schedule performance.
    Mr. Assad. All right. Thank you, Mr. Congressman. That is 
specifically what the material development decision process is 
all about that we have instituted in DOD Instruction 5000. It 
is to get the warfighters, the requirements generators, 
together with the acquisition folks, pre-milestone A, to say do 
we really have a solution and do we understand what your 
requirement is? How do we concept that?
    Mr. Andrews. My final comment would be one of the 
witnesses--I think the professor--talked about encouraging ROTC 
education and whatnot, that any sort of integrated education we 
could do with our warfighters and our civilian procurement 
people make an awful lot of sense, that to the extent that some 
of our men and women in the field that are driving the 
requirements for us also had some skills and knowledge in the 
procurement area, that they got some skill set would be a very, 
very positive thing.
    Mr. Conaway.
    Mr. Conaway. Thank you, Chairman.
    The hiring process you mentioned, Mr. Assad, the 
expedited--what would we call the hiring process?
    Mr. Assad. Hiring authority.
    Mr. Conaway. Well, the expedited hiring authority versus 
competitive or regular or the----
    Mr. Assad. Oh--oh, no, sir. The expedited hiring authority 
is still competitive. What it does is it enables us to keep 
positions open for a longer period of time, kind of a rolling 
admissions type of a thing.
    Mr. Conaway. What is the time differential between a 
typical hire under the standard model versus the expedited 
model?
    Mr. Assad. I can just see to my own personal experience. 
The regular process at times has taken us 7 to 8 months to hire 
somebody, and in an expedited hiring authority, we can get them 
in in 90 days. That is pretty good.
    I mean, you know, they know up front that they are going to 
be hired. That is the important thing. It is that uncertainty 
of someone who is looking for a job--do I know I am actually 
going to be hired? And if they understand that they are, then 
they do understand they have got to go through, in some cases, 
security clearance processes, other cases----
    Mr. Conaway. So the expediter allows you to tell them, 
well, we are hiring you.
    Mr. Assad. Right.
    Mr. Conaway. But that means they have got to make personal 
choices to wait on whatever that is. They have got some 
confidence to do that. And that is where that 13 number came in 
earlier that you only had 13 people bail out on you under the 
expedited model?
    Mr. Assad. That is correct. Yes, sir. That is correct.
    Mr. Conaway. Any sense of how many people bail out under 
the regular model?
    Mr. Assad. Well, the problem is that in many instances--I 
don't have a precise number, but I can tell you anecdotally 
oftentimes what happens is you go back and tell somebody you 
want to hire them, and they are gone. They are already working 
for somebody else.
    Mr. Conaway. Thank you.
    Professor, you mentioned incentives in the private sector 
that aren't available in the public sector. Can you give me 
some sense of what kind of incentives we could offer to 
government employees, given your understanding of how the 
government works and how incentives programs that we have in a 
lot of places get hung up in the union issues and, you know, 
all those kinds of things?
    Professor Schooner. Well, I actually commend Mr. Assad. In 
some recent testimony he has talked about the fact that DOD is 
looking at this issue again, and I think anything they do is a 
good example. But the least cost, most effective one I have 
seen in the last generation was Vice President Al Gore gave 
away hammers on frames, and that worked pretty darn well. It 
didn't cost very much. People loved the pat on the head.
    Mr. Conaway. So it is the recognition more than money.
    Professor Schooner. I think that is part of it, but I also 
think we can do more with money as well.
    Mr. Conaway. All right.
    And then one final question for the whole panel. Talking 
about contractors in this day and age is a lot like talking 
about lobbyists. It is almost used as a pejorative, and that is 
not fair on either one of them.
    Do we really have a good understanding of what a good 
contractor looks like when you see him? I mean, we have 
certainly got some contractors throughout this 52,000 that at 
least you should talk about, who we get good value from when 
they do the job for us. Do we understand which is which?
    Mr. Assad. I think we do, and I certainly don't want to 
intimate at all, Mr. Congressman, that we are not getting good 
value from the contractors that are working for us. In general 
they do a good job. I think what this is just is a recognition 
that there are some capabilities that we just need to increase 
our own particular capability.
    Mr. Conaway. That leads to a kind of aside. One of you 
mentioned inherently governmental functions and tightening up, 
generally tightening up. What did you mean by tightening up? I 
didn't know which way that tightening went.
    General Farrell. It is a very loose definition in its 
application. There are also some spinouts. I have got a paper 
here that we did in the National Defense Industrial 
Association, which we provided for your staff. And the paper 
goes through it. We sent it to OMB.
    But basically definition in this application is very 
loosely applied. There are some spinout definitions like 
positions closely associated with inherently government. Who 
knows what that means?
    Mr. Conaway. Okay.
    General Farrell. There is a process under way now to define 
that. OMB has got the stick on that, and they are supposed to 
report out on 30 September, but if they don't come out with a 
tight definition of that, it is going to be very difficult 
between government and industry to sort out what we do.
    Mr. Conaway. Should they have that definition out before 
they get out the estimate for the 2009 deficit? Never mind. 
That is an inflammatory comment. Any other comments on your 
contractors versus their contractors?
    Professor Schooner. Very briefly on this. First of all, the 
public perception of this issue is simply incorrect. Our 
contractors provide the United States Government excellent 
value for money. And I have spent a lot of time traveling 
around the world working with other governments on their 
procurement systems. We have the best procurement system in the 
world. We get terrific value for our money.
    At the end of the day, we can take any individual example. 
If I were to just give you one quick one, the public believes 
deep in their heart that Kellogg Brown & Root has done a bad 
job in the LOGCAP contract. That is wrong.
    I believe that a generation from now, military history may 
reflect that the Logistics Civil Augmentation Program (LOGCAP) 
contract is the most significant advance in military history 
ever. Never has a military had the ability to project so much 
potency and sustainability around the world with such speed. 
Mr. Assad mentioned surge capacity. This is a remarkable model, 
and the public has absolutely no idea, because they are focused 
on errors at the margin.
    Having said that, the errors at the margin are what are 
caused by not having enough people to effectively manage our 
contracts. But these are superb contractors doing excellent 
work for our Defense Department.
    Mr. Conaway. Next.
    General Farrell. Yes, sir. The kind of people we need to 
bring into government are highly technical, skilled guys. If we 
are going to insource things, we should not insource what I 
call the arms and legs business.
    Mr. Conaway. The what?
    General Farrell. The arms and legs business--people 
carrying things, delivering things, performing basic logistics 
functions, because the industry is much more agile than 
government when it comes to hiring and laying those people off 
and making the financial adjustments.
    To follow on the professor's comment, somebody like Kellogg 
Brown & Root, over half the people supporting those guys in 
Iraq are former service guys. And when somebody comes up--if a 
soldier comes up and I am supplying water or meals, and they 
say, ``You know, we need three crates of water or we need two 
trucks of water,'' I don't ask the guy to sign an invoice. I 
deliver it to him. And when I deliver to him, I don't tell him 
to drop his rifle and sign the fact that I have delivered it.
    But you have seen GAO go out there and audit those things 
and say, ``We can't verify the fact that, you know, two trucks 
of water was delivered on such and such a day.'' These guys are 
doing incredible work out there, and we ought to give them 
credit for it.
    Mr. Conaway. Thank you, Chairman.
    Mr. Andrews. Thank you, Mr. Conaway.
    Mr. Coffman, do you have any follow-up?
    Mr. Coffman. Yes, Mr. Chairman.
    I think that there was some discussion about the mix 
between military and civilian procurement officers, and there 
was a comment about just the training and professional 
development of military personnel versus civilians. Do we have 
the right mix of military personnel versus civilians in 
procurement?
    Mr. Assad. I believe we do, Mr. Congressman. We have about 
2,200 Air Force personnel, uniformed Air Force personnel, who 
are in the contracting profession, if you will. We have a 
thousand who are in the acquisition profession. We have about 
400 Army, to soon grow to a thousand, in terms of contracting 
professionals. So we have got a pretty good mix of military.
    We are focusing on military capability primarily on 
supporting the battlefield, and that is where it needs to be. 
We need acquisition program managers, who are capable of 
managing major weapons systems, but in terms of doing the 
actual logistics and contracting support itself, our soldiers, 
sailors, airmen and marines need to know and have the skills 
that are necessary to operate on the battlefield and support 
those soldiers who are on the battlefield, and marines and 
airmen and sailors.
    And I think that we have got a pretty good mix. Mr. 
Schooner mentioned our development programs. We have an 
outstanding development program in the Air Force in terms of 
growing its acquisition professionals. The Marine Corps has 
recently over the last two years completely restored and 
revitalized its acquisition professional management curricula 
and their development program for Marine officers and Marine 
enlisted. It is very impressive.
    So I think we are in pretty good shape with regard to what 
we need. The Army is going to have a challenge, you know, over 
the next four or five years. They are continuing to grow. They 
have a good idea of the number that they need. They are not 
there, but they have a plan to get there.
    Mr. Coffman. Thank you, gentlemen.
    Mr. Andrews. Thank you.
    I would like to thank my colleagues and thank the panel for 
excellent work here this morning. I think the committee is very 
much focused not on quantitative questions, but on qualitative 
ones. I think if we approach this issue from the question how 
many people should we have working on this problem, we are not 
going to get the right answer.
    What I prefer to see us do is derive some qualitative 
standards, where we say, ``How can we have the very best 
procurement system from the point of view of the uniformed 
personnel and the taxpayer,'' and then figure out the skill 
sets necessary to achieve that, and then work the quantity out 
from there.
    I think we have a great opportunity in the budget 
commitment that the secretary of defense has made to fill out 
the workforce, but I think it is our responsibility--it is 
incumbent upon us--to take full advantage of that opportunity 
and make sure that we give Mr. Assad and his colleagues the 
tools in recruiting, training, educating and retaining high-
quality people, who will be able to do the work that needs to 
be done here.
    I am particularly impressed by the fact that General 
Farrell's story, I think, is very telling, that I don't want to 
see us fall into the trap of stereotypical assumptions, good or 
bad, about contractors and/or public employees. There are 
negative stereotypes for both. There are positive stereotypes 
for both. We don't want to be in the stereotype business.
    We want to encourage a system where we have sensible lines 
to draw between where we insource and where we outsource based 
upon the merits, and then we get the best on both sides, and we 
reward people and incentivize them to do the job as well as 
they can.
    Because you have done such a good job this morning, your 
reward is that we are going to ask you more questions later on 
in the process, I am sure, and if you gentlemen would avail 
yourselves to that, this panel's intention is to present 
legislative recommendations to the full committee in time for 
the fiscal year 2011 bill that will come out next year. We are 
certainly going to be asking you for your thoughts as we go 
forward in that process.
    With that, the panel stands adjourned.
    [Whereupon, at 9:11 a.m., the panel was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 21, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 21, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2272.001
    
    [GRAPHIC] [TIFF OMITTED] T2272.002
    
    [GRAPHIC] [TIFF OMITTED] T2272.003
    
    [GRAPHIC] [TIFF OMITTED] T2272.004
    
    [GRAPHIC] [TIFF OMITTED] T2272.005
    
    [GRAPHIC] [TIFF OMITTED] T2272.006
    
    [GRAPHIC] [TIFF OMITTED] T2272.007
    
    [GRAPHIC] [TIFF OMITTED] T2272.008
    
    [GRAPHIC] [TIFF OMITTED] T2272.009
    
    [GRAPHIC] [TIFF OMITTED] T2272.010
    
    [GRAPHIC] [TIFF OMITTED] T2272.011
    
    [GRAPHIC] [TIFF OMITTED] T2272.012
    
    [GRAPHIC] [TIFF OMITTED] T2272.013
    
    [GRAPHIC] [TIFF OMITTED] T2272.014
    
    [GRAPHIC] [TIFF OMITTED] T2272.015
    
    [GRAPHIC] [TIFF OMITTED] T2272.016
    
    [GRAPHIC] [TIFF OMITTED] T2272.017
    
    [GRAPHIC] [TIFF OMITTED] T2272.018
    
    [GRAPHIC] [TIFF OMITTED] T2272.019
    
    [GRAPHIC] [TIFF OMITTED] T2272.020
    
    [GRAPHIC] [TIFF OMITTED] T2272.021
    
    [GRAPHIC] [TIFF OMITTED] T2272.022
    
    [GRAPHIC] [TIFF OMITTED] T2272.023
    
    [GRAPHIC] [TIFF OMITTED] T2272.024
    
    [GRAPHIC] [TIFF OMITTED] T2272.025
    
    [GRAPHIC] [TIFF OMITTED] T2272.026
    
    [GRAPHIC] [TIFF OMITTED] T2272.027
    
    [GRAPHIC] [TIFF OMITTED] T2272.028
    
    [GRAPHIC] [TIFF OMITTED] T2272.029
    
    [GRAPHIC] [TIFF OMITTED] T2272.030
    
    [GRAPHIC] [TIFF OMITTED] T2272.031
    
    [GRAPHIC] [TIFF OMITTED] T2272.032
    
    [GRAPHIC] [TIFF OMITTED] T2272.033
    
    [GRAPHIC] [TIFF OMITTED] T2272.034
    
    [GRAPHIC] [TIFF OMITTED] T2272.035
    
    [GRAPHIC] [TIFF OMITTED] T2272.036
    
    [GRAPHIC] [TIFF OMITTED] T2272.037
    
    [GRAPHIC] [TIFF OMITTED] T2272.038
    
    [GRAPHIC] [TIFF OMITTED] T2272.039
    
    [GRAPHIC] [TIFF OMITTED] T2272.040
    
    [GRAPHIC] [TIFF OMITTED] T2272.041
    
    [GRAPHIC] [TIFF OMITTED] T2272.042
    
    [GRAPHIC] [TIFF OMITTED] T2272.043
    
    [GRAPHIC] [TIFF OMITTED] T2272.044
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 21, 2009

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MR. ANDREWS

    Mr. Assad. As of June 30, 2009, 36,039 members of the organic 
defense acquisition workforce occupy acquisition positions designated 
as engineering in the Systems Planning, Research, Development and 
Engineering (SPRDE) career field. Competency assessments and other 
initiatives will continue to inform capability and capacity needs. In 
addition, as a part of the Secretary's acquisition workforce growth 
strategy, approximately 2,800 SPRDE government employees will be added 
through 2015. [See page 18.]
    Mr. Assad. During fiscal year 2008, 1,756 of the 2,161 hires to 
SPRDE acquisition positions of the defense acquisition workforce were 
external DOD hires and the remaining 405 were DOD internal hires. 
Seventy-three percent of external DOD General Schedule (GS) hires were 
at the GS-09 or lower level. Fifty-seven percent of external DOD 
National Security Personnel System hires were at Pay Band 1 and 43 
percent at Pay Bands 2 or 3. Of the 1,756 external hires, approximately 
38 percent appear to have been recent college graduates. [See page 19.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 21, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ANDREWS

    Mr. Andrews. Can you describe in more detail the competency 
modeling you are conducting? GAO has suggested that the modeling will 
be useful for identifying the capability you currently have in the 
workforce, but it may be less than useful in telling you what you need 
in the workforce. How do you intend to ensure you do indeed have the 
workforce you NEED?
    Mr. Assad. The Under Secretary of Defense for Acquisition, 
Technology and Logistics (USD (AT&L)) has deployed a joint competency 
management initiative to update, validate, and standardize functional 
competencies for each career field within the DOD AT&L workforce and to 
support workforce planning, gap analysis, development, and training 
applications. Each competency model defines technical and professional 
competencies and the related elements and key behaviors needed to be 
successful in the corresponding acquisition career field.
    The Department's Contracting Community is the first to have 
utilized its competency model to assess workforce capabilities and gaps 
and to identify training and development needs. The Contracting 
Competency Assessment, completed in September 2008, targeted 20,573 
contracting professionals DOD-wide and achieved a participation rate of 
over 87%. The purpose of the assessment was to assess individual 
capabilities and training needs and evaluate overall organization/
command capabilities and gaps. Assessment results were provided to each 
participating organization/command to provide senior procurement 
executives and contracting leaders with an organization/command-level 
view of their workforce's overall proficiency levels. A key role for 
senior contracting leaders was to apply their leadership judgment to 
these results in order to identify workforce gaps and the appropriate 
gap closure strategies, thus aligning their workforce with their 
mission and developing a workforce for the future.
    The Defense Acquisition Workforce Development Fund (DAWDF) and the 
FY2010 Defense Budget together provide senior leaders with the means to 
close workforce gaps and adjust human capital strategies. Today the 
Department is implementing DAWDF initiatives to include training 
enhancement and capacity expansion, retention and recognition efforts, 
career broadening and academic programs, intern programs, recruiting 
incentives, outreach programs, journeyman hiring programs, and a focus 
on hiring expert knowledge and/or highly qualified experts. In 
addition, the Department will grow the contracting workforce and 
increase the DOD organic acquisition management capability. Together, 
these actions ensure that we will indeed have the workforce we need to 
deliver mission-critical capabilities.
    A hallmark of the contracting effort was the extensive involvement 
of senior procurement executives and leaders across the Contracting 
Community in updating the competency model, ensuring participation in 
the assessment, and applying assessment results to the human capital 
planning process. This leadership involvement is a workforce best 
practice and ensures leaders are actively engaged in the current and 
future relevance of competencies used to assess and develop the 
workforce. Periodic competency model reviews are planned to ensure 
currency of the competencies in light of emerging and future needs.
    Mr. Andrews. Are there particular types of contracts that are more 
challenging to oversee and manage? Do individuals assigned to those 
contracts receive any special training?
    Mr. Assad. It is as much the complexity of the requirement as the 
type of contract that determines the level of contract surveillance and 
the training required. The Subcommittee on Sufficient Contract 
Surveillance under the Panel on Contracting Integrity was charged with 
reviewing Contracting Officer's Representative (COR) functions and 
developing a DOD Standard for COR Certification. It also focused on the 
type of training required for appropriate and effective contract 
surveillance.
    While the effort is not yet complete, the subcommittee established 
three levels of required competencies and training requirements based 
on the nature and complexity of the work.

    <bullet>  Level A is a contract with low performance-risk, fixed 
price requirements without incentives. COR duties/responsibility would 
generally be limited to minimal technical and/or administrative 
monitoring of the contract. Training requirements are spelled out in 
the standard.

    <bullet>  Level B is other than low risk, e.g. the contract 
requirements may include (1) more complex work; (2) work that is 
performed in multiple locations; (3) incentive arrangements or cost-
sharing provisions, or (4) is a cost type or time and material effort. 
COR duties/responsibilities are of increased complexity. The training 
requirements for CORs in these cases are greater and are again spelled 
out in the standard.

    <bullet>  Level C are those contracts that have a unique 
requirement, such as major weapon systems, earned value management 
(EVM), environmental remediation, certain OCONUS contingency efforts, 
etc. COR duties/responsibilities involve highly complex or specialized 
requirements and the standard for the training requirements address 
this complexity.

    The Subcommittee is working with the Defense Acquisition University 
(DAU) to develop all the appropriate training and certification 
requirements for CORs.
    Mr. Andrews. What do you view as the current weaknesses in the 
acquisition workforce? And, in your view what are the causes for those 
weaknesses? Conversely, what are the strengths?
    Mr. Assad. Our biggest current weakness in the acquisition 
workforce is the significant decline in the size of the workforce 
during the past 15 years. On April 6, 2009 Secretary Gates announced 
his plans to grow, reshape and rebalance the acquisition workforce to 
address this compelling weakness. The intent is to reshape and 
rebalance the size of the acquisition workforce with measurable targets 
for growth. This will enable appropriate oversight, pricing, and 
technical management of our major weapon systems and services 
contracts.
    Our greatest strength remains the high quality and strong 
dedication of our people who make up the acquisition workforce and the 
quality of training delivered to develop the competencies and skills of 
the acquisition team. We have a workforce that truly cares about the 
acquisition mission and strives to provide best value products and 
services to the soldiers, sailors, marines, and airmen who are 
currently operating in conflicts around the world.
    Mr. Andrews. With an aging workforce--both within DOD and the 
private sector--how should organizations be planning to ensure that the 
acquisition community has the skills and experience needed for the 
future?
    Mr. Assad. The planning process for different organizations will be 
different - it is not a ``one size fits all'' situation. The 
Department's acquisition workforce planning construct to ensure that 
the DOD has the right skills and experience needed for the future was 
based on the following principles: 1) senior leadership involvement; 2) 
data-driven workforce analysis and decision-making; 3) ensuring that 
the right participants are involved to include functional and human 
resource managers; 4) ensuring there is a defined strategic intent with 
the appropriate resources; 5) promoting partnering between functional 
and line managers; and 6) ensuring that force planning and comptroller 
personnel are actively involved.
    Approximately 68% of the defense acquisition workforce is in the 
Baby Boomer generation. The Secretary's strategy for growth of the 
acquisition workforce, enabled by the Defense Acquisition Workforce 
Development Fund, provides for significant entry-level and journeymen 
hiring. DOD's hiring strategy is data driven and will vary based on the 
functional community. In general, approximately 60% of new hiring is 
for interns and 40% for journeymen. The strategy is supported by 
initiatives and tools such as expedited hiring authorities, retention 
incentives, improved recognition opportunities, improved competency gap 
information, and expanded training and development resources. These 
tools and initiatives will ensure the Department is taking appropriate 
actions today to produce the skills and experience required for the 
future.
    Mr. Andrews. What role should the acquisition workforce play in the 
upfront requirements definition and pre-award planning for either 
products or services?
    Mr. Assad. The acquisition workforce should play an active and 
collaborative role in the definition of requirements by ensuring that: 
requirements are clearly stated; associated technologies are mature; 
and integration and manufacturing risks are identified. The acquisition 
workforce plays a principal role in pre-award planning by selecting 
business strategies designed to satisfy the government's requirement in 
a cost-effective manner.
    Mr. Andrews. Not only military personnel but senior civilians 
rotate through acquisition offices on a fairly regular basis. A weapon 
systems program lasting 20 years could have 10 different program 
officers, none of whom have any real ownership of the program. This 
leads to complacency--no one wants to point out problems on their 
watch. Should we require longer terms, at least for civilian personnel, 
for program managers? If so, should it be for the life of the program 
or at certain milestones?
    Mr. Assad. I expect that major system Program Managers' tours will 
comply with statutory guidelines and current Department policy. Section 
1734 of Title 10, United States Code, generally requires the Program 
Manager and Deputy Program Manager of a major defense acquisition 
program to be assigned to their position until completion of the major 
milestone (e.g., system design and development) that occurs closest to 
four years in their position. DOD Instruction 5000.66 provides 
additional guidance and establishes the requirement for a written 
tenure agreement.
    May 2007 policy memo, ``Program Management Tenure and 
Accountability,'' emphasized the need for Program Managers to have 
sufficient tenure to achieve expected outcomes and to improve both 
systemic and personal accountability. Signed tenure agreements capture 
that expectation. There are waiver provisions in place, but the 
Military Departments are aggressive in limiting approvals of waiver 
requests. The Navy reports, for example, that nearly two-thirds of 
their Program Managers serve until the agreed upon tenure is completed.
    We have long recognized the need to balance the need for individual 
career development with sufficient tenure to provide for stability and 
accountability. Department policy already calls for longer tour lengths 
for assignments to acquisition positions and our planned financial 
incentive program will further encourage people to stay in their 
positions longer. However, the Department also believes there is value 
in rotating experienced members of the acquisition corps to other 
programs so they transfer lessons learned across the acquisition 
community. This, too, is recognized in statute (10 U.S.C. 1734) which 
generally calls for the rotation of those serving in critical 
acquisition positions (both military and civilians) after five years.
    The Military Departments all recognize the need to balance Program 
Manager tenure with the career development needed to grow future 
acquisition leaders. They are using available flexibilities to tailor 
tenure appropriately based on the program and its point in the life 
cycle. For example, the Army staggers rotations to ensure continuity of 
program goals and responsibilities. At their Project and Product 
Managers level, they attempt to ensure all Program Managers in one 
office do not rotate out of their positions in the same year. In 
addition, civilians who serve as Deputy Program Executive Officers and 
Deputy Program Managers are often in their positions for five or more 
years, providing dedicated continuity of effort.
    We will continue to use assignment policies that look at 
individuals' career development and overall program manning to improve 
the acquisition workforce as a whole and still meet individual program 
objectives.
    Mr. Andrews. Besides mandating that an individual have certain 
DAWIA certifications (which they could obtain early in their career), 
there appears to be no identified career path for talented individuals 
in the acquisition field. What initiatives need to be taken to ensure 
continuing training/education and the possible development of a more 
defined career path for acquisition personnel?
    Mr. Assad. We have a very structured and defined career path for 
both military and civilian members of the defense acquisition 
workforce. The DOD acquisition workforce development program is 
structured to support the continuing professional development of 
individuals throughout their careers. The objective of the program is 
to develop a professional, agile, motivated workforce and to ensure 
that individuals are prepared for current and future performance 
success. The career development program supports attainment of 
acquisition competencies and continuous learning to include updates on 
evolving policies and procedures. Acquisition leaders are responsible 
for providing personnel opportunities to grow in three defined areas: 
1) education, 2) training, and 3) experience. These three elements 
provide a structured approach to ensure individuals are qualified for 
critical and advanced acquisition positions. It is much more than just 
DAWIA certification.
    Members of the acquisition workforce and their supervisors 
establish tailored plans for continuous learning in order to increase 
functional proficiency, maintain currency, increase leadership and 
cross-functional competencies. They are also required to complete 80 
continuous learning points (CLPs) every two years. Members are expected 
to possess the competencies necessary to perform in their current 
assignment and develop their potential for career progression.
    We recently enhanced our career development framework. This new 
framework is designed to guide acquisition professionals to competency 
development beyond the minimum standards required for certification, 
based on specific types of assignments within an acquisition function/
career field. Certification and Core Plus development guides are 
available at http://icatalog.dau.mil/onlinecatalog/CareerLvl.aspx. 
Support resources include new certification requirements and training, 
over 200 web-based continuous learning modules, knowledge management 
and best practice tools, and other, component-specific, development 
guidance and resources. Many of these resources are also used by other 
federal agency acquisition workforce members. In addition, DOD members 
are encouraged to pursue career opportunities through career broadening 
to include assignments and tours of duty with other federal agencies.
    The Department continues to improve upon career development 
resources. For example, DOD is updating competencies and conducting 
individual assessments which provide valuable information to identify 
gaps and further develop and enhance skills sets. Metrics have been 
developed that provide insight into the qualifications of all members. 
Also, there are Directors of Acquisition Career Management for all the 
military services and for the defense agencies. These individuals work 
with individual members to ensure they have career development 
opportunities that allow them to grow and compete for promotions 
throughout their career.
    The Department's strategic acquisition workforce planning is 
focused on ensuring we have the right workforce we need to meet current 
and future mission requirements, including the right competencies and 
the right numbers.
    Mr. Andrews. We have been told that there are no senior level 
courses on service contracting being taught at the Defense Acquisition 
University? Why is that when service contracts account for so much of 
the DOD budget today?
    Mr. Assad. DOD has increased services-specific training resources 
to include training for senior leaders and managers. In 2007, DOD 
established a Learning Center of Excellence (LCOE) for services 
acquisition at the Defense Acquisition University. The Center of 
Excellence, in partnership with the components, has been very active in 
creating new services training resources. Results include creation and 
deployment of a new mid-level course--ACQ 265--Mission Focused 
Services. This course is targeted to employees, managers and leaders 
involved in developing service requirements, business arrangements, and 
performance management or oversight strategies. The course is case-
based and requires students develop key elements of a service 
acquisition.
    DOD has also deployed new-start services acquisition training for 
local multi-functional teams. Using the Defense Acquisition Workforce 
Development Fund, DAU developed and taught 14 Service Acquisition 
Workshops (SAWs) this year. These action learning workshops use 
``real'' new start acquisitions and help engage the local team and 
their leadership early in the acquisition process to create 
performance-based requirements and business strategies.
    DAU is also developing the Service Acquisition Mall or SAM. SAM 
will be an online resource available to participants in the services 
acquisition process, assisting them in developing and executing service 
acquisition requirements using a performance based approach. SAM is 
organized by Product Service Codes grouped into Knowledge Portfolios of 
similar type services. SAM will contain training from the SAWs and 
best-in-class examples of performance objectives, performance standards 
and performance assessment metrics for the different types of services 
within a knowledge portfolio. Planned enhancements include developing 
``smart tools'' to guide users through the service acquisition process 
and provide them with the tools and to convert old statements of work 
into performance based requirements.
    Finally, in partnership with the Air Force and the University of 
Tennessee, DAU has developed an online senior level awareness training 
module. This module was piloted recently with Air Force leadership and 
the Missile Defense Agency. Based on pilot feedback, the training is 
being finalized and will be widely available in the first quarter of 
2010.
    DOD recognizes the importance of services acquisition and will 
continue to improve its training resources to support improved 
acquisition outcomes.
    Mr. Andrews. What do you view as the current weaknesses in the 
acquisition workforce? And, in your view what are the causes for those 
weaknesses? Conversely, what are the strengths?
    Professor Schooner. [The information was not available at the time 
of printing.]
    Mr. Andrews. With an aging workforce--both within DOD and the 
private sector--how should organizations be planning to ensure that the 
acquisition community has the skills and experience needed for the 
future?
    Professor Schooner. [The information was not available at the time 
of printing.]
    Mr. Andrews. How do you view the DOD initiative to increase the 
workforce?
    Professor Schooner. [The information was not available at the time 
of printing.]
    Mr. Andrews. Acquisition jobs can be a tough sell these days, what 
do we need to do to attract college graduates and even mid-career 
experienced individuals to join the acquisition community?
    Professor Schooner. [The information was not available at the time 
of printing.]
    Mr. Andrews. Besides mandating that an individual have certain 
DAWIA certifications (which they could obtain early in their career), 
there appears to be no identified career path for talented individuals 
in the acquisition field. What initiatives need to be taken to ensure 
continuing training/education and the possible development of a more 
defined career path for acquisition personnel?
    Professor Schooner. [The information was not available at the time 
of printing.]
    Mr. Andrews. We have been told that there are no senior level 
courses on service contracting being taught at the Defense Acquisition 
University? Why is that when service contracts account for so much of 
the DOD budget today?
    Professor Schooner. [The information was not available at the time 
of printing.]
    Mr. Andrews. What role should the acquisition workforce play in the 
upfront requirements definition and pre-award planning for either 
products or services?
    Professor Schooner. [The information was not available at the time 
of printing.]

                                  <all>

</pre></body></html>
